                             Department of the Interior
                            Office of Inspector General




             AUDIT REPORT



             U.S. Fish and Wildlife Service
              Federal Assistance Grants
             Awarded to the State of Missouri,
               Department of Conservation,
          From July 1, 2003, Through June 30, 2005




Report No. R-GR-FWS-0004-0006             February 2007
                  United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 2019

                                                                                February 23, 2007
                                    AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Program
               Grants Awarded to the State of Missouri, Department of Conservation, From
               July 1, 2003, Through June 30, 2005 (No. R-GR-FWS-0004-2006)

        This report presents the results of our audit of costs incurred by the State of Missouri,
Department of Conservation (Department), under the U.S. Fish and Wildlife Service (FWS).
FWS provided the grants to the State under the Federal Assistance Program for State Wildlife
and Sport Fish Restoration (Federal Assistance Program). The audit included total reported
outlays of approximately $45.6 million on 31 FWS grants that were open during state fiscal years
(SFYs) ended June 30 of 2004 and 2005 (see Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of fishing and hunting license revenue and the reporting of program income.

        We found the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $482,471 in costs (federal share), including
$5,005 for costs claimed which were either ineligible for reimbursement or were for work not
completed and $477,466 of duplicate salary charges. We also developed findings on the
reporting of program income and personal property management.

     We provided a draft of the report to FWS and the Department for response. This report
summarizes Department and FWS Region 3 responses after each recommendation, as well as our
comments on the responses. We list the status of the recommendations in Appendix 3.

        Please provide us with your written response to the recommendations included in this
report by May 24, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader,
Peter Rich at 703-487-5354, or me at 703-487-5345.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to states to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. The Acts
also require that state hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, federal regulations and FWS guidance require states
to account for any income they earn using grant funds.

Objectives

The objectives of our audit were to determine if the Department:

           claimed the costs incurred under the Federal Assistance Program grants in accordance
           with the Acts and related regulations, FWS guidelines, and the grant agreements;

           used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

           reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $45.6 million on 31 FWS grants that were
open during SFYs 2004 and 2005 (see Appendix 1). We performed our audit at Department
headquarters in Jefferson City, Missouri, and visited 13 wildlife or fishery related locations (see
Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act of 1984, as amended, and by the Office of Management and Budget
Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as we considered necessary under the circumstances. Our tests and records included:



1
    As amended, 16 U.S.C. §§ 669 and 777, respectively.



                                                          2
      examining the evidence that supports selected expenditures charged to the grants by the
      Department;

      interviewing Department employees to ensure that personnel costs charged to the grants
      were supportable;

      reviewing transactions and supporting documentation related to purchases, other direct
      costs, drawdowns of reimbursements, in-kind contributions, and program income;

      conducting site visits to review equipment and other property; and

      determining whether the Department used hunting and fishing license revenues solely for
      sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the Missouri State Auditor’s Office to avoid
duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions in these systems for testing. We did not evaluate the economy, efficiency, or
effectiveness of Department operations nor project the results of tests to the total population of
recorded transactions.

Prior Audit Coverage
On June 11, 2003, we issued our advisory report, “Costs Claimed by the State of Missouri,
Department of Conservation, Under Federal Aid Grants from the U.S. Fish and Wildlife Service
from July 1, 1997 through June 30, 1999,” Report No. 2003-E-0022. We also reviewed the
Missouri Comprehensive Annual Financial Reports and Single Audit Reports for SFYs 2004 and
2005. We followed up on all relevant findings in the reports and determined that they had all
been considered resolved. One recommendation relating to records retention had not yet been
implemented.




                                                 3
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we discovered several
conditions that resulted in the findings listed below, including $482,471 (federal share) in
questioned costs. We discuss these findings in further detail in the Findings and
Recommendations Section.

       Questioned Costs. The Department claimed and was reimbursed $5,005 for direct costs
       which were either ineligible for reimbursement or were for work not completed.
       Additionally, the Department incorrectly charged $477,466 in personnel salaries to four
       grants as both direct and indirect costs.

       Unreported Program Income. The Department did not report all program income for
       barter transactions and boat rental fees generated under its Federal Assistance Program
       grants.

       Insufficient Personal Property Management. Some items were missing from the
       personal property inventory or not tagged. Additionally, the inventory listings contained
       some inaccurate data.

Findings and Recommendations
A.     Questioned Costs — $482,471

       1.     Ineligible Expenses — $5,005

              FWS reimbursed the Department $3,130 (federal share) for costs that were
              ineligible for reimbursement under Hunter Education Grant W-95-E-3.
              Specifically, the Department incorrectly charged the grant for binoculars,
              highlighters, and lanyards that were not used for grant related purposes. FWS
              also reimbursed the Department for $1,875 (federal share) under Aquatic
              Education Grant F-42-E-19 for postage to mail a questionnaire as part of a survey
              that was not performed. The total ineligible costs for the two grants were $5,005.

              The Code of Federal Regulations (50 C.F.R. 80.15) defines allowable costs as
              those which are reasonable, necessary to accomplish approved project purposes,
              and comply with the cost principles of OMB Circular A-87 (recently codified as
              2 C.F.R. 225). Appendix A, Section C.3 of the Circular specifies that a cost is
              allocable only if it provides a benefit to the grant. Appendix A, Section E defines
              direct costs as those that can be identified specifically with a particular final cost
              objective, such as cost of materials acquired, consumed, or expended to meet
              grant objectives.


                                                4
     The questioned charges occurred because the Department made accounting errors
     and inadvertently charged the wrong grants. We are questioning the $5,005 in
     reimbursed costs for ineligible and unallocable costs.

     Recommendation

     We recommend that the FWS resolve the $5,005 in questioned costs.

     Department Response

     Department officials concurred with the recommendation and indicated the
     Federal Aid coordinator took action effective January 2007. They indicated
     documentation for grant W-95-E-3 was revised to use excess allowable costs in
     place of the $3,130 in ineligible costs. Department officials also indicated that
     they credited the $1,875 in ineligible costs back to the Aquatic Education
     Program under a subsequent grant.

     FWS Response

     FWS management concurred with the recommendation and stated that they would
     work with the Department in developing a corrective action plan to address the
     recommendation.

     OIG Comments

     While FWS management concurs with the recommendation and the Department
     indicated action was taken to address the recommendations, additional
     information is needed in the corrective action plan, including verification that
     FWS officials reviewed and approved of actions taken or planned by the State.
     The plan should also contain the completion dates and titles of officials
     responsible for implementation of the actions taken (or planned).

2.   Salaries Charged as Both Direct and Indirect Costs — $477,466

     The Department incorrectly charged personnel salaries to Federal Assistance
     Program grants as both a direct and indirect cost. The Department calculates
     proposed indirect cost rates 2 years in advance of the fiscal year in which they
     will be used. The Department directly charged to the grants some personnel
     salaries that were already included in the indirect cost rates for SFYs 2004 and
     2005. The duplicate charges totaled $477,466 (federal share) during the audited
     grant periods as shown in the following table:




                                      5
Table 1. Salaries Charged as Both Direct and Indirect Costs

                                 Charges      Charges           Federal
        Grant                   SFY 2004     SFY 2005   Total    Share
 F-42-E-19 and F-42-E-20             $650         $386   $1,036     $777
 F-50-D-6 and F-50-D-7            $13,316      $22,792 $36,107 $27,080
 W-93-D-9 and W-93-D-10          $278,242     $304,930 $583,173 $437,380
 W-95-E-3 and W-95-E-4             $7,879       $8,427 $16,306 $12,229
                                 $300,087     $336,534 $636,622 $477,466

OMB Circular A-87 (recently codified as 2 C.F.R. 225), Appendix A, Section
D(2) states that because there is no universal rule for classifying costs as either
direct or indirect, it is essential that each cost be treated consistently in like
circumstances either as a direct or an indirect cost. In addition, Attachment A,
Section C.1 of the Circular states that to be allowable under federal awards, costs
must be necessary and reasonable for proper and efficient performance and
administration and be allocable to the federal award under provisions of the
Circular. It further states in Attachment A, Section C.1.j. that costs must be
adequately documented.

Department officials told us that to account for the duplicate charges they were
deducting the cost of the duplicate salaries for prior grant periods from the
indirect cost rate calculations for the next accounting period. This accounting
treatment, however, misallocates costs between different accounting periods and
impacts grants that have already been closed.

Recommendations

We recommend that FWS coordinate with the Department to:

1. resolve the $477,466 in questioned costs for direct charges billed to the grants
   for personnel in the indirect pool, and

2. develop policies and procedures to ensure personnel charges are charged only
   once to the grant.

Department Response

Department officials concurred with the recommendations and stated they
addressed the $477,466 in questioned costs by crediting the amount back to
Federal Assistance Program grants, effective January 2007. Department officials
also indicated that, beginning in SFY2006, they modified the process used to
charge salaries to correct the issue discussed in the finding. They stated that all
key personnel who are included in the indirect costs calculation are tagged with a
special identifier in the payroll system, and that this tag will prevent these


                                 6
            employees’ hours from being charged directly to any grants. The Federal Aid
            Coordinator was the official responsible for implementation.

            FWS Response

            FWS management concurred with the recommendations and stated that they
            would work with the Department in developing a corrective action plan to address
            the recommendations.

            OIG Comments

            While FWS management concurs with the recommendations and the Department
            indicated action was taken to address the recommendations, additional
            information is needed in the corrective action plan, including verification that
            FWS officials reviewed and approved of actions taken (or planned) by the State.
            The plan should also contain the (targeted) completion dates and titles of officials
            responsible for implementing the actions taken (or planned).

B.   Unreported Program Income

     Grantees are permitted to earn program income with funds generated from grant-related
     activities, but they must account for it under an approved method. The Department
     earned program income but did not identify on grant applications or report on the
     financial status report (SF-269) all of the program income generated from grant-related
     activities. The unreported income was from activities conducted under grants W-93-D-9
     and W-93-D-10 and included boat rentals on conservation area waters and barter
     agreements on conservation area lands. Under the barter agreements, the Department
     received services such as crops for wildlife, mowing, and bush hogging in lieu of lease
     payments for use of the conservation area lands.

     Title 43 C.F.R. § 12.65 defines program income as gross income the grantee receives that
     is directly generated by a grant supported activity; it includes income from services
     performed and the sale of commodities. Part 12.65(g) requires grantees to deduct
     program income from total grant costs to determine the net costs, on which the federal
     share of the grant is then based (deductive method). With FWS approval, grantees may
     add program income to the project funds (additive method) or use it to meet the cost
     sharing or matching requirement of the grant agreement (cost-sharing or matching
     method). Also, FWS Director’s Order 168, Exhibit 1, (recently incorporated into Service
     Manual Part 522 FW 19.4 and Exhibit 1) defines program income as income generated
     during the grant period that contribute to grant objectives on lands either purchased or
     managed with Federal Assistance Program funds.

     A Department official stated that the Department did not identify the boat rental fees in
     the associated wildlife grant agreement as program income because Department
     personnel did not believe it was a grant-related activity. Since boating is an approved and
     accepted recreational activity at a facility that is operated and managed under a Federal



                                              7
Assistance Program grant, the associated rental fees should be classified as program
income, in accordance with the regulations. For SFYs 2004 and 2005 we identified
$94,793 of boat rental fees associated with grant W-93-D-9 ($46,783) and grant W-93-D-
10 ($48,010).

We were also told that the Department did not report the value of its barter agreements as
program income because they did not have a mechanism in place to collect and track
these costs. Nevertheless, we believe that the value of those crops and services should be
identified in the grant agreement and reported as program income. We believe the lease
payments not received due to the barter agreements should be reported as outlays on the
grant. Since the Department did not have an accounting procedure in place to value the
barter services received, we were unable to quantify the unreported program income or
associated outlays in this area.

Recommendations

We recommend that the FWS:

1. resolve the issue of the unreported program income from boat rentals that occurred
   during SFYs 2004 and 2005;

2. ensure the Department identifies and reports as program income the revenues from
   boat rental fees on conservation areas managed with Federal Assistance Program
   funds; and

3. coordinate with the Department to (a) establish procedures to identify the barter
   transactions, along with the appropriate accounting and reporting of this agreement,
   in the grant application, and (b) appropriately report the value of crops received on
   the SF-269.

Department Response

Department officials concurred with the recommendations and revised the grant
documentation to include boat rentals as additional program income, effective January
2007. Department officials offset the additional program income with excess allowable
costs reported on the grants. Officials also agreed to include boat rental fees as program
income on the SF-269 for future grants. The Federal Aid Coordinator was the official
responsible for implementation.

During SFYs 2004 and 2005, the Department did not have an effective mechanism in
place to track barter transactions; Department officials therefore indicated that it was
impossible for them to go back, after the fact, and determine what barter services were
supplied and their corresponding value. The Department indicated that they have
established procedures to track and report barter services received currently and in the
future.




                                         8
     FWS Response

     FWS management concurred with recommendations one and two. FWS did not
     comment on recommendation three other than to note that a Federal-State Joint Policy
     Task Force is studying the issue of reporting barter transactions. FWS stated that they
     would work with the Department in developing a corrective action plan to address the
     recommendations.

     OIG Comments

     We revised the draft report recommendations based on the Department’s and FWS’s
     responses. In the draft, we included a combined recommendation to resolve the issue of
     program income received for both boat rental fees and barter transactions. In this final
     report, we established separate recommendations for boat rentals and barter transactions
     because (1) the assessment by Department officials that they were unable to determine
     retrospectively what barter services were supplied and their corresponding value seems
     reasonable, and the barter income would have been offset by lease revenue not received;
     (2) Department officials indicated that they are taking action to address the issue of
     reporting barter income now and in the future; and (3) members of the Federal-State Joint
     Policy Task Force are studying the issue of reporting barter transactions.

     While FWS management concurs with the recommendations one and two and
     Department officials indicated action was or is being taken to address these
     recommendations, additional information is needed in the corrective action plan on these
     recommendations, including verification that FWS officials reviewed and approved of
     actions taken or planned by the State, targeted completion dates, and titles of officials
     responsible for implementing the actions taken or planned.

     FWS did not comment on recommendation three. We therefore consider the
     recommendation unresolved. FWS should provide a response to the recommendations
     indicating concurrence or non-concurrence. If the FWS concurs, officials should provide
     a plan that identifies the actions taken or planned to implement the recommendation,
     targeted completion date(s), the title of official(s) responsible for implementation, and
     verification that FWS officials reviewed and approved of actions taken or planned by the
     State. If FWS does not concur, officials should provide the reasons for the non-
     concurrence.

C.   Insufficient Personal Property Management

     We examined personal property managed under the Department’s personal property
     management system for tracking equipment purchased with Federal Assistance Program
     funding. We found some property items were missing, not tagged, or improperly
     disposed of, resulting in inaccurate inventory listings.

     Title 50 C.F.R. § 80.19 requires the state to maintain current and complete property
     records in accordance with requirements in the Fish and Wildlife Service Manual and



                                             9
        OMB Circular A-102. Additionally, the Department’s Business Policy Manual Inventory
        Section requires that property items with an original acquisition cost or fair market value
        of at least $1,000 be identified by a unique numbered property tag and added to the
        Department’s centralized inventory. Certain other sensitive or vulnerable items—such as
        firearms and digital cameras—must be similarly identified, regardless of cost. The
        Manual also states that any property item with some salvage value that has been replaced
        or is no longer needed must be transported to a Department maintenance shop for proper
        disposal. The Manual further requires that disposition and transfer of property be
        documented and reported to the state’s Federal Assistance Coordinator if the property
        was purchased with Federal Assistance funding.

        Using the Department’s inventory listing, we examined property at nine sites2 and the
        Department headquarters in Jefferson City. The inventory listing, generated from the
        Fleetwave Asset Management System maintained by the Department’s Administrative
        Services Division, identified 151 equipment items valued at $241,519 purchased between
        1951 and 1999 with Federal Assistance Program funds. With the help of the
        Department’s staff at each location, we inspected a judgmental sample of 75 items valued
        at $127,578. Of the items sampled, we found:

                 five items valued at $4,785 that were not properly tagged,

                 a freezer valued at $5,236 for which the Department did not follow its equipment
                 disposal procedures, and

                 32 firearms valued at $9,983 and six other items (gun safe, two skeet machines,
                 portable trap machine, rabbit trap, and projection microscope) valued at $15,831
                 that were not coded as having been purchased with Federal Assistance Program
                 funds.

        Additionally, we could not locate eight items valued at $11,289.

        Recommendation

        We recommend that FWS ensures that the Department accurately updates the missing
        data in the Fleetwave Asset Management System, tags untagged items, and accounts for
        the missing items.

        Department Response

        Department officials concurred with the recommendation and stated that effective
        January 2007:

                all items have been tagged,

2
 Regional offices at St. Charles, Columbia, and Cape Girardeau; Resource Science Center; Busch Shooting Range;
and Whetstone, Duck Creek, Otter Slough, and Ten Mile Pond Conservation Areas.


                                                      10
      the disposed-of freezer was deleted from the inventory system,

      the 32 firearms and five other items have been corrected on the property inventory
      to reflect the appropriate federal fund codes, and

      one of the six items identified as improperly coded, the rabbit trap, was not
      purchased with Federal Assistance Program funds.

Department officials also indicated that of the eight items that could not be found, two
items were located and two items were sold in 2006 and have now been removed from
the inventory. The remaining items, valued at $7,085, have not yet been located. Of
these items, Department officials consider one item, valued at $1,510, lost. Department
officials indicated they likely disposed of or replaced the remaining three items.

FWS Response

FWS management concurred with the recommendation and stated that they would work
with the Department in developing a corrective action plan to address the
recommendation.

OIG Comments

FWS management concurs with the recommendation and the Department indicated action
was or is being taken to address the recommendation. We do note, however, that
Department officials should update their inventory to include the status of all missing
items. Additional information is also needed in the corrective action plan, including
verification that FWS officials reviewed and approved of actions taken or planned by the
State. The plan should also contain targeted completion dates and titles of officials
responsible for implementing the actions taken or planned to resolve and implement the
recommendation.




                                        11
                                                                                            Appendix 1

                 MISSOURI DEPARTMENT OF CONSERVATION
                    FINANCIAL SUMMARY OF REVIEW COVERAGE
                       JULY 1, 2003, THROUGH JUNE 30, 2005

                            Grant                 Reported           Questioned         Federal
      Grant No.            Amount3                 Outlays             Costs             Share
      F-1-R-53             $175,271               $118,243
      F-1-R-54             $324,391               $290,385
      F-42-E-19          $1,053,249             $1,027,410                 $3,150          $2,362
      F-42-E-20            $978,140               $852,603                   $386            $289
      F-46-D-10            $445,300               $401,189
      F-46-D-15            $650,000               $665,539
      F-46-D-18            $150,000               $157,824
      F-46-D-19            $266,492               $274,861
      F-46-D-20             $80,000                $83,138
      F-46-D-21            $316,600               $489,759
      F-46-D-22          $1,261,986             $1,124,448
      F-46-D-23            $251,690               $250,892
      F-46-D-24             $73,115               $104,953
      F-46-D-25            $239,925               $237,013
      F-46-D-26            $335,929               $383,073
      F-46-D-27            $144,078                 $3,139
      F-46-D-28            $106,404                     $0
      F-46-D-29            $171,278                 $3,828
      F-49-D-5             $679,353               $586,234
      F-49-D-6           $1,034,783               $965,674
      F-50-D-6           $4,916,872             $4,425,612              $13,316            $9,987
      F-50-D-7           $4,254,789             $4,580,180              $22,792           $17,094
      F-51-L-1             $463,000               $462,875
      F-52-D-1           $1,667,000             $1,695,444
      W-100-L-1                  $0                     $0
      W-52-L-2                   $0                     $0
      W-93-D-10          $9,248,346            $10,990,920             $304,930           $228,698
      W-93-D-9           $8,560,112            $11,069,157             $278,242           $208,682
      W-95-E-3           $1,495,782             $2,083,348              $12,053             $9,040
      W-95-E-4           $1,561,019             $2,250,755               $8,427             $6,320
      W-96-L-2                   $0                     $0
                        $40,904,904            $45,578,495             $643,295           $482,472




3
 No Federal Assistance Program funding or expenditures were associated with grants W-100-L, W-52-L-2 and W-
96-L-2.


                                                     12
                                                                Appendix 2


 MISSOURI DEPARTMENT OF CONSERVATION
              SITES VISITED

                       Regional Offices
             St. Louis Regional Office, St. Charles
              Central Regional Office, Columbia
           Southeast Regional Office, Cape Girardeau

                      Conservation Areas
                 Whetstone Conservation Area
                Eagle Bluffs Conservation Area
                Duck Creek Conservation Area
                Otter Slough Conservation Area
               Ten Mile Pond Conservation Area

                      Combined Areas
August A. Busch Memorial Conservation Area and Shooting Range
          Blind Pony Conservation Area and Hatchery

                        Other Areas
                   Resource Science Center
                     Jackson Field Office
            Lexington Riverfront Park Access Ramp




                              13
                                                                                  Appendix 3

                            MISSOURI
                 DEPARTMENT OF CONSERVATION
         STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


    Recommendations                    Status                        Action Required
A.1, A.2.1, A.2.2, B.1, B.2,   FWS management           Additional information is needed in the
and C                          concurred with the       corrective action plan, including the
                               recommendations, but     actions taken or planned to implement
                               additional information   the recommendations, targeted
                               is needed.               completion date(s), the title of
                                                        official(s) responsible for
                                                        implementation, and verification that
                                                        FWS officials reviewed and approved
                                                        of actions taken or planned by the
                                                        State. We will refer recommendations
                                                        not resolved and/or implemented at the
                                                        end of 90 days (after May 24, 2007) to
                                                        the Assistant Secretary for Policy,
                                                        Management and Budget for resolution
                                                        and/or tracking of implementation.

B.3                            Unresolved               FWS should provide a response to the
                                                        recommendation indicating
                                                        concurrence or non-concurrence. If the
                                                        FWS concurs, provide a plan that
                                                        identifies the actions taken or planned
                                                        to implement the recommendation,
                                                        targeted completion date(s), the title of
                                                        official(s) responsible for
                                                        implementation, and verification that
                                                        FWS officials reviewed and approved
                                                        of actions taken or planned by the
                                                        State. If FWS does not concur, provide
                                                        the reasons for the non-concurrence.
                                                        We will refer recommendations not
                                                        resolved and/or implemented at the end
                                                        of 90 days (after May 24, 2007) to the
                                                        Assistant Secretary for Policy,
                                                        Management and Budget for resolution
                                                        and/or tracking of implementation.




                                               14
